The pricing addendum for the BB&T Spectrum Cash Rewards Retail Credit Card is accurate as of
November 21, 2020

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

Prime Rate + 9.99%

to Prime

Rate + 18.99%

APR for Balance
Transfers

Prime Rate + 9.99% to Prime Rate + 18.99%
This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

APR for Cash Advances
and Overdraft Advances Prime Rate + 18.99%
This APR will vary with the market based on the Prime Rate.
Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month. We will
begin charging Interest on Cash Advances and Balance Transfers on the transaction date.

Minimum Interest
Charge

•

None

•

None

•

$10.00 or 3% of the amount of the transfer, whichever is greater.
$10.00 or 3% of the amount of the transfer, whichever is greater.
3% of the transaction after conversion to US dollars.

Fees
Annual Fee
Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction
Penalty Fees
• Late Payment
• Over-the-Credit Limit
• Returned Payment

•
•

•
•
•

Up to $38
None
None

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new transactions).
Prime Rate: The Prime Rate used to determine your APR is a variable rate and is the highest prime rate published in the “Money
Rates” section of the U.S. edition of The Wall Street Journal as of the first day of the month in which your billing cycle ends.

Branch Banking and Trust Company, a subsidiary of BB&T Corporation, now Truist Bank, Member FDIC. ©2020 Truist Financial Corporation. BB&T®, the BB&T
logo, and Truist are service marks of Truist Financial Corporation. All rights reserved.

MASTERCARD®/VISA® CONSUMER
CARDHOLDER AGREEMENT AND
TRUTH IN LENDING DISCLOSURES

Important: Please read this folder
and retain it for your records.

TABLE OF CONTENTS
MASTERCARD/VISA CONSUMER CARDHOLDER
AGREEMENT AND TRUTH-IN-LENDING
DISCLOSURES ....................................................3
TERMS USED IN AGREEMENT......................3
AGREEMENT BETWEEN BANK AND
CARDHOLDER .............................................3
ARBITRATION AGREEMENT.........................10
TRUTH IN LENDING DISCLOSURES AND
COMPUTATION OF ANNUAL PERCENTAGE
RATES/FEES.....................................................12
YOUR BILLING RIGHTS..............................15

2

MASTERCARD/VISA CONSUMER CARDHOLDER
AGREEMENT AND TRUTH IN LENDING DISCLOSURES
This Cardholder Agreement and Truth in Lending Disclosures
(“Agreement”) applies to any MasterCard Card or Visa Card
(“Card”) previously issued, or to be issued, by Branch Banking
and Trust Company (“Bank”). This Agreement also governs
the issuance and use of “Convenience Checks” (“Convenience
Checks”), Balance Transfers, and the use of your Cardholder
Account to provide Overdraft Protection.
TERMS USED IN AGREEMENT
The following words have the following meanings in this
Agreement: (a) “Cardholder” means any individual(s), firm,
partnership, or corporation who applies for, signs, accepts, uses,
retains, or authorizes the use of the Card (hereinafter “you,”
“your”); (b) “Cardholder Account” or “Account” means the credit
account or accounts established by Bank for Cardholder for
all transactions under this Agreement as a result of issuance
of either a MasterCard Card or Visa Card; (c) “Cash Advance”
means a loan that Cardholder obtains from Bank using any of
the methods specified in this Agreement; (d) “Purchase” means
a purchase of goods sold or services of any kind from a seller
or provider of goods or services; (e) “Maximum Credit Limit”
means the total dollar amount Bank approves against which the
Cardholder may make Purchases through the use of Cards; (f)
“Cash Advance Limit” means that portion of the Maximum Credit
Limit against which the Cardholder may get Cash Advances
through any of the methods specified in this Agreement; (g)
“Merchant” means a business displaying the MasterCard and/
or Visa signs; (h) “Overdraft Protection” means a service for
qualified checking account clients of Bank’s affiliated financial
institutions, which protects your designated checking accounts
from overdrafts and rejected items by making automatic Cash
Advances from your Cardholder Account.
AGREEMENT BETWEEN BANK AND CARDHOLDER
Cardholder agrees to be bound by the following terms,
conditions, and disclosures, which shall constitute the
Agreement between Bank and Cardholder. By accepting
and using the Card or a Convenience Check, or any feature
of the Account, or by electronically agreeing to the terms
of this Agreement, the Cardholder expressly agrees to
be bound by the provisions of this Agreement and to the
rates and charges applicable to the use of the Card, the
Convenience Checks and any other feature or transaction
applicable to the Account. Cardholder acknowledges that
this Account s to be used primarily for personal, family and
household purposes.
COMMUNICATIONS CONSENT
You expressly consent and agree that Bank and our
affiliates, agents, assignees and service providers may use
written, electronic or verbal means to contact you. This
consent includes, but is not limited to, contact by manual
calling methods, prerecorded or artificial voice messages,
text messages, emails and/or automatic telephone dialing
3

systems. You agree that Bank and our affiliates, agents,
assignees and service providers may use any email
address or any telephone number you provide, now or
in the future, including a number for a cellular phone or
other wireless device, regardless of whether you incur
charges as a result. For any wireless (cell phone) number
you provide, you represent that you are the subscriber or
are authorized to consent to these communications on
behalf of the subscriber. You agree that Bank may monitor
and record any telephone calls to assure the quality of our
service or for other business reasons, and that you will
advise us if your contact information changes.
ELECTRONIC CONTRACTING
You agree that if you applied for your Card online, that: (i) this
Agreement is an electronic contract executed by you using your
electronic signature, (ii) your electronic signature signifies your
intent to enter into this Agreement and that this Agreement be
legally valid and enforceable according to its terms, (iii) that
the authoritative copy of this Agreement (“Authoritative Copy”)
will be the electronic record of this Agreement that is stored in a
document management system designated by us for the storage
of authoritative copies of electronic records produced and used
in the ordinary course of business, and (iv) no paper version of
the Authoritative Copy will be executed, although you may print a
copy of the Agreement for your own records.
1. Bank may refuse to issue the Card, or may revoke the Card
issued to Cardholder, with or without cause or notice. Any
revoked Card, along with any Convenience Checks, must
be surrendered upon demand or upon knowledge of its
revocation, to Bank or its agent designated to repossess the
Card. No expired or revoked Card or Convenience Checks
shall be used to obtain, or to attempt to obtain, credit.
2. Under the terms hereof Cardholder may, by use of the Card,
buy goods and services from businesses displaying the
MasterCard and/or Visa signs. A business displaying any of
the above signs shall be hereinafter referred to as Merchant.
Cardholder may also use the Card to borrow cash from any
bank displaying the appropriate sign. The Card must be signed
to insure proper use. The Card is not valid unless signed by the
Cardholder. Cardholder must follow any reasonable and proper
procedures required by a bank or Merchant honoring the Card.
3. Cardholder may utilize Convenience Checks as he would
checks written on a regular checking account. Bank will honor
a properly signed Convenience Check, which shall be deemed
to be signed written authorization for a Cash Advance. Any
Convenience Checks delivered to Cardholder will be similar
to regular checking account checks. The only party authorized
to sign a Convenience Check shall be the Cardholder
regardless of whether other individuals are authorized to
receive extensions of credit under this Agreement. Other
than Convenience Checks and personal checks drawn on
a checking account for which Cardholder has obtained
Overdraft Protection, no other checks may be used to obtain
Cash Advances, and when paid by Bank they will constitute a
Cash Advance which will be debited to Cardholder’s account.
4

Bank shall not be obligated to certify any Convenience Check
issued under this Agreement. Convenience Checks may only
be written in U.S. Dollars. Also, Bank shall not be obligated
to pay a Convenience Check if such payment will overextend
Cardholder’s credit limit or if Cardholder’s account is not in
good standing. A Convenience Check cannot be used to make
a payment on your Cardholder Account.
4. Cardholders who are also qualifying checking account clients
may elect to utilize their Cardholder Account to provide
Overdraft Protection for one or more qualifying checking
accounts. If you have elected to use your Cardholder Account
to provide Overdraft Protection, automatic Cash Advances will
be made against the Credit Card Account to cover overdrafts
in designated checking accounts. The presentation of any
check signed by any person authorized to draw checks upon
any checking accounts for which you have elected Overdraft
Protection or the assessment of any other charges against the
checking accounts in excess of the balance in the checking
accounts constitutes an authorization for a Cash Advance to
be made under this Agreement. We have the sole discretion to
determine whether to advance funds to the checking accounts
in the amount needed to cover each overdraft amount item, up
to the established Cash Advance Limit, to pay checks, drafts,
or any other charges when there is not a sufficient balance
in the checking accounts at the time such checks, drafts,
or other charges are presented or made. Bank may refuse
to authorize any Cash Advance in connection with Overdraft
Protection if the Cardholder Account is not in good standing
or if the Cash Advance would exceed the Cash Advance Limit.
Bank is not liable for any returned items or NSF fees. The
terms and conditions governing your checking accounts and
the fees (including any fees charged for Overdraft Protection)
associated with your checking accounts are contained in the
Bank Services Agreement and the Financial Services Pricing
Guide which are incorporated herein by reference.
5. Cardholder shall not use the Card, Convenience Checks or
Overdraft Protection if such use would make Cardholder’s
debt to Bank greater than the credit limit set by Bank from
time to time.
6. Upon request, Cardholder may transfer outstanding
balances from other credit cards to the Card (“Balance
Transfer”). Cardholder has 10 days from the date the
Account was opened to call Bank at 1-800-476-4228 to
cancel any Balance Transfers. Balance Transfer processing
time may vary so please continue to pay the minimum
amount due until the Balance Transfer amount appears on
the billing statement from your other creditor(s). All Balance
Transfers will be posted to the Cardholder’s Account as a
Purchase, with the Balance Transfers considered a part of
the outstanding balance from the date of the transfer. Bank
may charge a Balance Transfer Fee. Please see the Interest
Rate and Interest Charges document for any applicable
Balance Transfer Fee.
7. The Bank at its discretion may from time to time increase
the credit limit of the cardholder.
8. The Bank may at anytime decrease the credit limit of the
cardholder if the Bank deems repayment of the debt to be at
5

risk or if the performance by the client is deemed impaired.
9. Bank may charge an annual fee to Cardholder’s account,
in advance, whether or not the Card is used to obtain
extensions of credit. The amount of the annual fee will be
as specified from time to time by notice or disclosure given
by Bank to Cardholder.
10. Cardholder shall be responsible for the annual fee and
all credit obtained (through Purchases, Cash Advances, or
otherwise) by the authorized use of Card or Convenience
Checks, by any person. Further information regarding the
annual fee may be found in the Interest Rate and Interest
Charges document included with this mailing.
11. The following transactions are considered Cash Advances:
requesting cash in person at any bank; making a credit
transaction at participating ATM network machines; making
a credit transaction through online banking; funding a wire
transfer; purchasing of money orders, travelers checks, lottery
tickets, betting or casino chips, or cryptocurrency; writing a
Convenience Check; making a credit transaction by using BB&T
Phone24; or utilizing Overdraft Protection. A Cash Advance fee
will not be charged on Cash Advances made in connection with
Overdraft Protection. Fees may apply for other types of cash
advances as listed in paragraph 8(d) of the Truth in Lending
Disclosures. At the time of obtaining each Cash Advance
(other than at an ATM machine) or at the time of making each
purchase or credit transaction, Cardholder or his authorized
user, shall sign a Cash Advance slip, sales slip, or by any other
method Bank may approve from time to time, evidencing the
transaction. The word “slip” shall include a draft or any other
instrument acknowledging or recognizing the transaction.
Cardholder shall be furnished one copy of each slip signed by
the Cardholder; provided, however, that no such copy will be
furnished if Cardholder writes a Convenience Check, writes a
personal check(s) triggering Overdraft Protection or makes or
receives a credit transaction at an ATM machine or through
online banking or Phone24. Total Cash Advance limits and daily
Cash limits will be established by the Bank at its discretion.
12. If any Card or Convenience Checks are lost or stolen,
Cardholder shall immediately notify Bank upon discovery of
such loss or theft by calling 1-800-476-4228. Cardholder
shall cooperate completely with Bank in its attempts
to recover any losses suffered by Bank resulting from
unauthorized users and shall assist in the prosecution of
such persons. Further information regarding the procedures
for lost or stolen Cards or Convenience Checks is available
in paragraph 10 of the Truth in Lending Disclosures.
13. Bank shall have no liability or responsibility whatsoever
resulting from the refusal of any Merchant or any bank to
honor the Card or Convenience Checks, and Bank shall not
be, or be deemed to be, a party to any purchase or other
transaction between Cardholder (or other user of Card) and any
Merchant even though Bank may become obligated to make
disbursements directly to such Merchant. No cash refunds will
be made to, or accepted by, a Cardholder with respect to any
adjustments for, or returns of, goods or services purchased. Any
adjustment, return or refund in connection therewith shall be
6

accomplished only by credit to the Cardholder’s account with
Bank authorized by a properly executed credit slip.
14. If a Merchant discloses a policy such as “no returns”,
“no refunds”, “as is”, etc. you will be bound by that policy
when you use your Account to purchase goods or services
from that Merchant. Similarly, if you use your Account to
make travel or lodging reservations, you will be bound by
that Merchant’s cancellation policy.
15. If you authorize a Merchant to charge your Account for
recurring transactions without your card being present,
you agree to notify the Merchant when you discontinue the
transaction or if your Account is closed or a new Account
number is issued by us.
16. This Account may be used for legal purposes only. The
Bank at its discretion may block any transactions that
could be considered of an illegal or at-risk nature. We will
not be liable if you engage in an illegal transaction.
17. Bank will bill Cardholder monthly, on a date selected by Bank,
for amounts becoming due through use of Cardholder’s Card,
Convenience Checks or Overdraft Protection. Upon receipt,
Cardholder should examine each statement and immediately
notify Bank of any charge or item, which Cardholder believes
to be in error, or subject to dispute. Any charge or item as to
which Bank is not notified within sixty (60) days after billing
date shall be conclusively deemed to be correct.
18. If you disagree with a transaction on your statement or have
a dispute with the Merchant as a result of the transaction,
you agree to provide information or assistance we request.
Otherwise, you agree to pay us for any resulting loss we have
unless we are prohibited by applicable law from holding you
liable for our loss. Transactions made with the proceeds of a
Cash Advance are not covered by this paragraph.
19. Notwithstanding anything herein to the contrary, Bank may
declare you to be in default if one or more of the following
events occur: (a) default by Cardholder in making any
payment when due and payable, (b) default by Cardholder
under any provision of this Agreement, or any other agreement
Borrower may have with Bankcard or any of its affiliated
banks (c) Cardholder’s death, insolvency or making an
assignment for the benefit of creditors, (d) a petition being
filed or any other proceeding being commenced under the
Federal Bankruptcy Code or any state insolvency statute by or
against Cardholder, or (e) a receiver being appointed for, or a
writ or order of attachment, levy or garnishment being issued
against Cardholder or any of Cardholder’s property, assets or
income, (f) or in the event Bank shall deem itself or the debt
unsafe or insecure or deems that the prospect of payment
or performance by customer is impaired, (g) or if any of the
undersigned or any Obligor shall fail to furnish information
to Bank sufficient to verify the identity of the undersigned
or any Obligor as required under the USA PATRIOT Act then,
at Bank’s option, all amounts from Cardholder to Bank shall
become immediately due and payable and in any such event
Cardholder agrees to pay all costs of collection permitted by
applicable law, including reasonable attorneys’ fees, incurred
by Bank in connection therewith.
7

20. If Cardholder chooses to pay less than the total new balance
as shown on Cardholder’s monthly periodic statement, a
total minimum payment is required for each billing cycle. The
total minimum payment is calculated as the greater of the
following: (1) 1% of your total new balance plus interest and
select fees, but not less than $27.00; or (2) 1% of your total
new balance plus interest, select fees, and the higher of any
past due amount or any amount over credit limit. Select fees,
as referenced above, include Late Payment Fees, Statement
Copy Fees, Customer Requested Expedited Service Fees, and
Revolving Account Protection (RAP) Coverage fees.
21. Cardholder agrees to make at least the minimum periodic
payment no later than the due date as indicated on the
monthly periodic statement provided by Bank. Bank may
withhold availability of credit until the payment of the item
presented has been collected. If Cardholder is late making the
payment, Bank may, at its option, charge the late payment
fees as disclosed in paragraph 8 (b) of the Truth in Lending
Disclosures, in addition to the Interest Cardholder owes under
this Agreement.
Payments made in proper form as follows will be credited
as of the date of receipt:
• At any BB&T financial center during normal business
hours
• Through BB&T Phone24 by 6 pm EST
• Through BB&T Online Banking or BB&T Mobile by 7
pm EST
• By mail if received by 5 pm EST – please allow at
least 5 Business Days for delivery
22. The Bank will apply your payment in the following order:
Interest, Fees, and balances from highest to lowest APR.
23. Any notice required to be given by this Agreement, by law, or
desired to be given by Bank, shall be deemed effectively given
if and when posted in the United States mail addressed to
you at your billing or last known address on Bank’s records,
or delivered electronically through BB&T online banking, or
delivered by email, if legally permitted, to the address you have
provided. Cardholder agrees to promptly notify Bank if any
of your contact information changes, which may include your
name, mailing address, email address, or phone numbers.
24. Foreign Transactions and Fees: Visa or MasterCard
International will convert to U.S. dollars any charge or credit
made to your Account in currency other than U.S. dollars. The
conversion rate will be determined under Visa or MasterCard
regulations. The conversion rate may differ from the rate on
the date of your transaction. Currently, Visa and MasterCard
use a currency conversion rate of either: (1) a wholesale
market rate, or (2) a government-mandated rate. Visa and
MasterCard use, under their respective regulations, either
the rate in effect on (1) the date the transaction is processed
or (2) the day before the date the transaction is processed.
Bank may charge a foreign transaction fee for transactions
made or processed outside the U.S. as listed in paragraph
8(e) of the Truth in Lending Disclosures.
25. Change In Terms: Bank may change the terms of this
Agreement at any time. The new terms will apply to both
8

new Purchases and Cash Advances and any unpaid
balance and accrued INTEREST at the time the change is
effective. We will provide you with notice of the change to
the extent required by law.
26. Disputed Accounts: Bank will not be obligated to accept
any check, money order or other payment instrument
marked “payment in full” delivered on any disputed
account, loan balance, fee or expense owed, and Bank
expressly reserves the right to reject all such payment
instruments. All communications concerning any disputed
amounts owed, including without limitation any payment
instrument tendered in good faith as full satisfaction of
amount owed, must be sent to the following address:
Disputed Accounts Bankcard Disputed Payments
P.O. Box 200
Wilson, NC 27894-0200
If Cardholder fails to send any communication, check,
money order or other payment instrument purporting to pay
any disputed amount due hereunder in full, to the address
designated above, the obligation referred to will not be
satisfied, and shall be deemed not to have been in good
faith, even if such payment instrument is inadvertently
processed by Bank.
27. Accuracy of Credit Information: Bank regularly and in
the normal course of business reports its credit experience
with its customers to the major credit bureau repositories.
Should you believe that information we have reported about
the credit history of your Account(s) is inaccurate, please
notify us at the following address: BB&T Loan Services,
P.O. Box 1847, Wilson, North Carolina 27893-1847.
Please include your name, address, Social Security number,
account number and a specific explanation of what
information you believe to be inaccurate.
28. Notice of Furnishing Negative Information: We may
report information about your account to credit bureaus.
Late payments, missed payments, or other defaults on your
account may be reflected in your credit report.
29. Important Information For:
California Residents: The applicant, if married, may
apply for a separate account. After credit approval, each
applicant shall have the right to use this account to the
extent of any credit limit set by the creditor and each
applicant may be liable for all amounts of credit extended
under this account to each joint applicant.
New York and Vermont Residents: We may obtain at any time
your credit reports for any legitimate purpose associated
with the account or the application or request for an account,
including but not limited to reviewing, modifying, renewing
and collecting on your account. On your request, you will be
informed if such a report was ordered. If so, you will be given
the name and address of the consumer reporting agency
furnishing the report. New York residents may contact the
state banking department to obtain a comparative listing
of credit card rates, fees and grace periods. New York State
Banking Department: 1-800-518-8866.
Ohio Residents: The Ohio laws against discrimination
require that all creditors make credit equally available
9

to all creditworthy customers and that credit reporting
agencies maintain separate credit histories on each
individual upon request. The Ohio Civil Rights Commission
administers compliance with this law.
Utah Residents: As required by Utah law, you are hereby
notified that a negative credit report reflecting on your
credit record may be submitted to a credit reporting agency
if you fail to fulfill the terms of your credit obligation.
Married Wisconsin Residents: No provision of any
marital property agreement, unilateral statement, or
court order applying to marital property will adversely
affect a creditor’s interests unless prior to the time
credit is granted, the creditor is furnished with a copy of
the agreement, statement or court order, or has actual
knowledge of the provision.
30. Governing Law: This Agreement and my Account shall
be governed by the laws of the United States and, to the
extent applicable, the laws of the State of North Carolina,
regardless of where Cardholder resides or uses the Account.
31. Introductory and Promotional Rates and Fees: At the
time your Account is opened, Bank may offer introductory
or promotional rates and fees for a specified period of time
that will be disclosed in your Interest Rate and Interest
Charges document. If your Account is eligible, Bank
may, from time to time, offer introductory or promotional
rates and fees after your Account is opened. The terms
of that offer will be disclosed to you at that time and may
differ from any prior introductory or promotional offers.
After introductory or promotional rates and fees expire,
the remaining balances will be subject to your standard
applicable APR and fees.
ARBITRATION AGREEMENT
The following arbitration agreement does not apply to you if
you were a member of the active military, or were a spouse or
dependent of a member of the active military, at the time you
applied to establish your account and your account is subject
to the provisions of the Military Lending Act, 10 U.S.C. § 987
and its implementing regulations, 32 C.F.R. § 232.1, et seq.
32. IT IS IMPORTANT THAT YOU READ THIS ARBITRATION
PROVISION CAREFULLY. IT PROVIDES THAT YOU MAY BE
REQUIRED TO SETTLE A CLAIM OR DISPUTE THROUGH
ARBITRATION, EVEN IF YOU PREFER TO LITIGATE SUCH
CLAIMS IN COURT. YOU ARE WAIVING RIGHTS YOU MAY HAVE
TO LITIGATE THE CLAIMS IN A COURT OR BEFORE A JURY.
YOU ARE WAIVING YOUR RIGHT TO PARTICIPATE IN A CLASS
ACTION LAWSUIT, CLASS ACTION ARBITRATION, OR OTHER
REPRESENTATIVE ACTION WITH RESPECT TO SUCH CLAIMS.
Any dispute, claim, controversy or cause of action, that
is filed in any court and that arises out of or relates to
this Agreement or Cardholder’s application for a Card, or
the breach, termination, enforcement, interpretation or
validity thereof, including the determination of the scope
or applicability of this agreement to arbitrate, shall be
determined by arbitration before one arbitrator at a location
10

mutually agreed upon in the state where your account is
maintained, or as may be otherwise required under the
JAMS Minimum Consumer Standards, which is incorporated
by reference herein. The arbitration shall be administered
by JAMS pursuant to its Streamlined Arbitration Rules &
Procedures. Judgment on an award may be entered in any
court having jurisdiction. This clause shall not preclude a
party from seeking provisional remedies in aid of arbitration
from a court of appropriate jurisdiction. The arbitrator may, in
its award, allocate all or part of the costs of the arbitration,
including the fees of the arbitrator and the reasonable
attorneys’ fees of the prevailing party. Notwithstanding
other language in this agreement, a party retains the right
to bring an action in small claims court if it is within the
jurisdictional limits of that court. If a party elects arbitration,
it may be conducted as an individual action only. This
means that even if a demand for a class action lawsuit,
class arbitration, or other representative action (including
a private attorney general action) is filed, the matter will
be subject to individual arbitration. Either party may bring
a summary or expedited motion to compel arbitration or to
stay the applicable litigation of a dispute in any court. Such
motion may be brought at any time, and the failure to initiate
or request arbitration at the beginning of litigation shall
not be construed as a waiver of the right to arbitration. If a
party elects to arbitrate it shall provide notice to the other
party. The Bank shall provide notice to you at the address
we have in our records, and you may provide notice to:
Litigation Practice Group Manager, BB&T Legal Department,
P.O. Box 1255, Winston-Salem, NC 27102. You may obtain
a copy of the rules of the arbitration administrator,
including information about consumer arbitration, fees, and
instructions for initiating arbitration by contacting JAMS at
www.jamsadr.com. Phone: 800-352-5267.
You and the Bank each agree that under this Agreement,
you and the Bank are participating in transactions
involving interstate commerce which shall be governed
by the provisions of the Federal Arbitration Act, Title 9
of the United States Code (“FAA”) and not by any state
law concerning arbitration. The arbitrator shall follow
applicable substantive law to the extent consistent with
the FAA, applicable statutes of limitation and applicable
privilege rules, and shall be authorized to award all
available remedies, including without limitation, damages
(to the extent not limited by this Agreement), declaratory,
injunctive and other equitable relief, and attorneys’ fees
and costs. The arbitrator shall follow rules of procedure and
evidence consistent with the FAA, this provision, and the
administrator’s rules.
Any court with jurisdiction may enter judgment upon the
arbitrator’s award. The arbitrator’s award will be final and
binding, except for any appeal right under the FAA. Unless
applicable law provides otherwise, the appealing party will
pay the cost of appeal, regardless of its outcome. However,
we will consider in good faith any reasonable written
11

request for us to bear the cost of your appeal. We will pay
any fees or expenses we are required by law to pay or in
order to make this arbitration provision enforceable.
This arbitration provision shall survive termination or
suspension of the Account or this Agreement, and shall
survive payment of Cardholder’s obligations under this
Agreement or termination of any or all Cards. If any
portion of this arbitration provision is deemed invalid
or unenforceable, it shall not invalidate the remaining
portions of this arbitration provision or Agreement; provided,
however, if the limitations on class actions are struck in
a proceeding brought on a class, representative or private
attorney general basis, without impairing the right to
appeal such decision, this entire arbitration provision (other
than this proviso) shall be null and void in such proceeding.
TRUTH IN LENDING DISCLOSURES
AND COMPUTATION OF ANNUAL
PERCENTAGE RATES/FEES
Branch Banking and Trust Company (hereinafter “we,”
“our,” and “us”) makes the following Truth in Lending
Disclosures to Cardholder (hereinafter “you,” “your”).
You agree that the rate and charges and methods of
computation and repayment in connection with use of the
Card are as follows:
1. Computation of INTEREST on Purchases (Daily):
(a) No INTEREST is imposed on Purchases if the total new
balance as shown on your monthly periodic statement
is paid in full within 25 days of the statement date.
INTEREST is imposed on Balance Transfers from the date
of the transfer.
(b) Where payment of the total new balance is not made
in full within 25 days (or when the new balance includes
Balance Transfers), INTEREST will be imposed on your
Purchase balance. We calculate INTEREST on this portion
of your Account by applying the daily periodic rate to
the beginning daily balance for Purchases plus any new
Purchases and fees (other than Cash Advance fees) and less
any payments or credits. To compute the daily balance for
Purchases we take the beginning Purchase balance of your
account each day, add any new Purchases, fees (other than
Cash Advance fees) and any INTEREST on the current day’s
balance, and we subtract any payments or credits. This gives
us the daily balance. A Purchase appearing on your statement
is considered a part of the outstanding balance from the
date of the transaction or, if posting occurs in the next billing
cycle, then from the first day of the next billing cycle.
(c) See the Interest Rate and Interest Charges document
included with this mailing for the ANNUAL PERCENTAGE
RATE. The daily periodic rate is the annual percentage rate
divided by 365.
2. Computation of INTEREST on Cash Advances (Daily):
(a) INTEREST is imposed for each day that you have the
Cash Advance.
(b) The amount, which will be subject to INTEREST, is the
daily balance of your Cash Advances during the billing
12

cycle. We calculate the INTEREST on this portion of your
Account by applying the daily periodic rate to the beginning
daily balance for Cash Advances plus any new Cash
Advances and Cash Advance fees and less any payments or
credits. To compute the daily balance for Cash Advances we
take the beginning Cash Advance balance of your account
each day, add any new Cash Advances, any Cash Advance
fees and any INTEREST on the current day’s balance, and
we subtract any payments or credits. This gives us the daily
balance. A Cash Advance appearing on your statement is
considered a part of the outstanding balance from the date
of the transaction or, if posting occurs in the next billing
cycle, then from the first day of the next billing cycle.
(c) See the Interest Rate and Interest Charges document
included with this mailing for the ANNUAL PERCENTAGE
RATE. The daily periodic rate is the annual percentage rate
divided by 365.
3. Computation of INTEREST with Special Rate (Daily):
(a) If we have special periodic rate offers in effect from
time to time, we will separately identify them on your
monthly statement and separately disclose on your monthly
statement the balance to which the special offers apply.
These separate balances and the related periodic INTEREST
will be calculated in the same manner as described above
for the current or previous cycle transactions, as applicable.
(b) Special rate offers may apply to special convenience
checks. If so, special convenience checks will be issued
and, if used, will be posted to the account as Purchases,
with INTEREST imposed from the transaction date.
(c) When a special rate offer expires, the annual
percentage rates under 1 (c) and/or 2(c) will apply.
(d) If applicable, see the Interest Rate and Interest
Charges document included with this mailing and
incorporated by reference for the special introductory
ANNUAL PERCENTAGE RATE. The special introductory daily
periodic rate is the special annual percentage rate divided
by 365.
4. Computation of INTEREST on Purchases (Monthly):
(a) No INTEREST is imposed on Purchases if the total new
balance as shown on your monthly periodic statement is paid
in full within 25 days of the statement date. INTEREST is
imposed on Balance Transfers from the date of the transfer.
(b) Where payment of the total new balance is not made
in full within 25 days (or includes Balance Transfers),
INTEREST will be imposed on your Purchase balance. We
calculate INTEREST on this portion of your Account by
applying the monthly periodic rate to the Average Daily
Purchase Balance. To determine the Average Daily Purchase
Balance of any account, we will take the beginning
Purchase balance of the account each day, add any new
Purchases (including Balance Transfers) and Fees (except
Cash Advance fees), and subtract any payment or credits.
This produces the daily Purchase balance. Then, we add up
the daily Purchase balances for each day in the billing cycle
and divide the total by the number of days in the billing
cycle. This produces the Average Daily Purchase Balance.
A Purchase appearing on your statement is considered
13

a part of the outstanding balance from the date of the
transaction or, if posting occurs in the next billing cycle,
then from the first day of the next billing cycle.
(c) See the Interest Rate and Interest Charges document
included with this mailing for the ANNUAL PERCENTAGE
RATE. The monthly periodic rate is 1/12 of the annual
percentage rate.
5. Computation of INTEREST on Cash Advances (Monthly):
(a) INTEREST is imposed for each day that you have the
Cash Advance.
(b) The amount, which will be subject to INTEREST, is the Cash
Advance Balance. We calculate INTEREST on this portion of
your Account by applying the monthly periodic rate to Average
Monthly Cash Advance Balance. To determine the Average
Daily Cash Advance Balance of any account (including current
transactions), we will take the beginning Cash Advance
Balances of the account each day, add new Cash Advances
and Cash Advance fees and subtract any payments or credits.
This produces the daily Cash Advances balance. Then, we add
up the daily balances for each day in the billing cycle and
divide the total by the number of days in the billing cycle. This
produces the Average Daily Cash Advance balance. A Cash
Advance appearing on your statement is considered a part of
the outstanding balance from the date of the transaction or, if
posting occurs in the next billing cycle, then from the first day
of the next billing cycle.
(c) See the Interest Rate and Interest Charges document
included with this mailing for the ANNUAL PERCENTAGE
RATE. The monthly periodic rate is 1/12 of the annual
percentage rate.
6. Computation of INTEREST with Special Rate (Monthly):
(a) If we have special periodic rate offers in effect from
time to time, we will separately identify them on your
monthly statement and separately disclose on your monthly
statement the balance to which the special offers apply.
These separate balances and the related periodic INTEREST
will be calculated in the same manner as described above
for the current or previous cycle transactions, as applicable.
(b) Special rate offers may apply to special convenience
checks. If so, special convenience checks will be issued
and, if used, will be posted to the account as Purchases,
with INTEREST imposed from the transaction date.
(c) When a special rate offer expires, the annual
percentage rates under 4 (c) and/or 5 (c) will apply.
(d) If applicable, see the Interest Rate and Interest
Charges document included with this mailing and
incorporated by reference for the special introductory
ANNUAL PERCENTAGE RATE. The special introductory
monthly periodic rate is 1/12 of the special annual
percentage rate.
7. Minimum INTEREST: See the Interest Rate and Interest
Charges document included with this mailing and
incorporated by reference for the minimum INTEREST
charge.
8. Fees and Charges: These fees will be subject to the applicable
INTEREST as provided in paragraphs 1, 2, 4 and 5 above.
14

(a) Annual Fee: See the Interest Rate and Interest Charges
document included with this mailing and incorporated by
reference for the annual fee.
(b) Late Payment Fee: See the Interest Rate and Interest
Charges document included with this mailing and
incorporated by reference for the late payment fee.
(c) Balance Transfer Fee: See the Interest Rate and
Interest Charges document included with this mailing and
incorporated by reference for the balance transfer fee.
(d) Cash Advance Fee: See the Interest Rate and Interest
Charges document included with this mailing and
incorporated by reference for the cash advance fee.
(e) Foreign Transaction Fee: See the Interest Rate and
Interest Charges document included with this mailing and
incorporated by reference for foreign transaction fee.
(f) Return Payment Fee: See the Interest Rate and Interest
Charges document included with this mailing and
incorporated by reference for return payment fee.
(g) Statement Copy Fee: See the Interest Rate and Interest
Charges document included with this mailing and
incorporated by reference for statement copy fee.
(h) Customer Requested Expedited Service Fee: See the Interest
Rate and Interest Charges document included with this mailing
and incorporated by reference for customer requested expedited
service fee.
9. We retain no security interest in any property purchased
with your Card.
10. You will not be liable for any unauthorized use of your
Card or Convenience Checks if you report the loss, theft
or unauthorized use. Written notice should be provided to
Branch Banking and Trust Company, P.O. Box 698, Wilson,
North Carolina 27894-0698. Verbal notice should be given
by calling 1-800-476-4228. A transaction is considered
unauthorized if it is initiated by someone other than the
Cardholder without the Cardholder’s actual, implied, or
apparent authority, and the Cardholder receives no benefit
from the transaction. We may conduct an investigation of
your claim, and we may deny your claim if we reasonably
conclude that the facts and circumstances do not
reasonably support a claim of unauthorized use. We may
require you to provide a written statement, affidavit or other
information in support of your claim of unauthorized use. If
you do not provide supporting information within the time
requested or within a reasonable period of time if a date is
not stated, we may deny your claim of unauthorized.
YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information regarding your
rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Think You Find a Mistake On Your
Statement
If you think there is an error on your statement, write to us at:
Customer Service
PO Box 30495
Tampa FL 33630-3495
15

In your letter, give us the following information:
• Account information: Your name and account
number;
• The posting date of the transaction in question;
• Dollar amount: The dollar amount of the suspected
error; and
• Description of Problem: If you think there is an error
on your bill, describe what you believe is wrong and
why you believe it is a mistake.
You must contact us within 60 days after the error
appeared on your statement.
You must notify us of any potential errors in writing.
You may call us, but if you do, we are not required to
investigate any potential errors and you may have to pay
the amount in question.
While we investigate whether or not there has been an
error, the following are true:
• We cannot try to collect the amount in question, or
report you as delinquent on that amount.
• The charge in question may remain on your statement,
and we may continue to charge you interest on that
amount. If we determine that we made a mistake, you
will not have to pay the amount in question or any
interest or other fees related to that amount.
• While you do not have to pay the amount in
question, you are responsible for the remainder of
your balance.
• We can apply any unpaid amount against your credit
limit.
Your Rights and Our Responsibilities After We Receive
Your Written Notice
We must acknowledge your letter within 30 days, unless
we have corrected the error by then. Within 90 days, we
must either correct the error or explain why we believe the
statement was correct.
After we receive your letter, we cannot try to collect any
amount you question or report you as delinquent. We can
continue to bill you for the amount you question, including
interest, and we can apply any unpaid amount against your
credit limit. You do not have to pay any questioned amount
while we are investigating, but you are still obligated to pay
the parts of your statement that are not in question.
If we find that we made a mistake on your statement, you
will not have to pay any interest related to any questioned
amount. If we did not make a mistake, you may have to pay
interest, and you will have to make up any missed payments
on the questioned amount. In either case, we will send you a
statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may
report you as delinquent. However, if our explanation does
not satisfy you and you write to us within ten days telling us
16

that you still refuse to pay, we must tell anyone we report
you to that you have a question about your statement. And,
we must tell you the name of anyone we reported you to. We
must tell anyone we report you to that the matter has been
settled between us when it finally is.
If we do not follow these rules, we cannot collect the first
$50 of the questioned amount, even if your statement was
correct.
Your Rights If You Are Dissatisfied With Your Credit Card
Purchases
If you are dissatisfied with the goods or services that you
have purchased with your credit card and you have tried in
good faith to correct the problem with the merchant, you
may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the purchase price must have been no more than $50.
(Note: Neither of these is necessary if your purchase was
based on an advertisement we mailed to you, or if we
own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or
with a check that accesses your credit card account do
not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still
dissatisfied with the purchase, contact us in writing at:
Customer Service
PO Box 30495
Tampa FL 33630-3495
While we investigate, the same rules apply to the
disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point,
if we think you owe an amount and you do not pay, we may
report you as delinquent.

MasterCard and Visa Credit Cards are issued by Branch Banking
and Trust Company, Member FDIC and Equal Housing Lender.

17

Rev. 11/19

I002804 - Standard Visa/MC

